D
I                                                 BUREAU OF LABOR STATISTICS

S
C
U
S
S
I
O
N   Office of Inspector General—Office of Audit
D
R
A
F
T




                                                  BLS NEEDS TO STRENGTHEN SECURITY OF
                                                  PRE-RELEASE ECONOMIC DATA IN THE
                                                  BLS/STATE LABOR MARKET INFORMATION
                                                  COOPERATIVE PROGRAMS




                                                                      Date Issued:   September 28, 2012
                                                                   Report Number:      17-12-005-11-001
U.S. Department of Labor                                September 2012
Office of Inspector General
Office of Audit                                         BLS NEEDS TO STRENGTHEN SECURITY OF
                                                        PRE-RELEASE ECONOMIC DATA IN THE
BRIEFLY…                                                BLS/STATE LABOR MARKET INFORMATION
                                                        COOPERATIVE PROGRAMS
Highlights of Report Number 17-12-005-11-001, issued
to the Acting Commissioner of the Bureau of Labor
Statistics.                                             WHAT OIG FOUND
                                                        We determined that no Federal statutes related to
WHY READ THE REPORT                                     pre-release information existed; as such, none
Since 1917, the Bureau of Labor Statistics (BLS)        were violated in the LMI cooperative programs.
has used cooperative agreements with States and         However, we did find that all four States violated at
territories to provide funding for the collection and   least some BLS requirements contained in the
analysis of Labor Market Information (LMI) data.        cooperative agreement. Specifically, we
Economic data and statistics that have not yet          determined that the early release of data by the
been released to the public — such as official BLS      Governor of North Carolina was a violation of the
estimates and other official BLS statistical products   cooperative agreement; however, we found that
— are called “pre-release information,” which BLS       the early release of data by the Governor of
considers to be confidential.                           Wisconsin was not. Further, we found that BLS
                                                        could do more to ensure States protect pre-release
In January 2012, Senator Richard Burr wrote a           information by clarifying definitions in the
letter to the OIG raising concerns about the            cooperative agreement and implementing
cooperative agreement between BLS and the               appropriate controls from the Office of
State of North Carolina. Furthermore, in May 2012,      Management and Budget (OMB) Statistical Policy
news media reported that the Governor of                Directive (SPD) No. 4 to protect pre-release
Wisconsin released employment statistics derived        information and reduce the risk of future security
from State Unemployment Insurance information           breaches.
prior to the data being approved by BLS and
officially becoming Quarterly Census of                 WHAT OIG RECOMMENDED
Employment and Wages.                                   We recommend that the Acting Commissioner for
                                                        BLS not only amend the cooperative agreement to
WHY OIG CONDUCTED THE AUDIT                             fully incorporate the requirements of OMB SPD
Our audit objectives were to answer the following       No. 4, but also require that individuals with access
questions:                                              to confidential pre-release information be informed
                                                        annually of their responsibilities to protect that
   1. 	 Were any Federal statutes or BLS                information and acknowledge their acceptance of
        requirements related to the protection of       those responsibilities in writing. We also
        confidential pre-release information            recommend that the Acting Commissioner provide
        violated in the LMI cooperative programs?       clear guidance to the States and BLS Regional
                                                        Offices for granting agent agreements and access
   2. 	 To what extent did BLS ensure that States       to pre-release information, increase monitoring of
        were protecting confidential pre-release        States to include adherence to the confidentiality
        information from unauthorized use or            requirements established by the cooperative
        disclosure?                                     agreement, clarify which estimates and statistical
                                                        products are BLS-owned, and provide clear
                                                        definitions of pre-release information and related
READ THE FULL REPORT                                    terms to the States and BLS Regional Offices.
To view the report, including the scope,
methodology, and full agency response, go to:           BLS agreed with three recommendations and
http://www.oig.dol.gov/public/reports/oa/2012/17­       acknowledged that the audit uncovered pieces of
12-005-11-001.pdf.                                      the cooperative agreement process that could be
                                                        improved. However, BLS disagreed with two
                                                        recommendations and some elements of our
                                                        findings.
PAGE INTENTIONALLY LEFT BLANK 

                                                              U.S. Department of Labor – Office of Inspector General




Table of Contents 


Assistant Inspector General’s Report ......................................................................... 1
 

RESULTS IN BRIEF ....................................................................................................... 3
 

Objective 1 — Were any Federal Statutes or BLS requirements related to the 

protection of confidential pre-release information violated in the LMI cooperative 

programs? ..................................................................................................................... 6
 
          States violated provisions of the cooperative agreement, exposing BLS 

             pre-release information to unnecessary risk of unauthorized use or 

             disclosure. ....................................................................................................... 6
 

          Finding 1 — All four States violated security controls contained in the 

             cooperative agreement to protect confidential pre-release information 

             from unauthorized use or disclosure. .............................................................. 6
 

Objective 2 — To what extent did BLS ensure that States were protecting 

confidential pre-release information from unauthorized use or disclosure? ........ 12
 
          Deficiencies in the cooperative agreement resulted in inconsistent 

             treatment of pre-release information and increased the risk of security 

             breaches. ...................................................................................................... 12
 

          Finding 2 — The cooperative agreement lacked clear definitions of pre­
             release information and related terms. .......................................................... 12
 
          Finding 3 — The cooperative agreement lacked appropriate controls to 

             protect pre-release information from unauthorized use or disclosure............ 13
 

RECOMMENDATIONS................................................................................................. 15
 

Appendices.................................................................................................................. 17
 
          Appendix A Background ..................................................................................... 19
 
          Appendix B Objectives, Scope, Methodology, and Criteria ................................ 21
 
          Appendix C Acronyms and Abbreviations .......................................................... 23
 
          Appendix D BLS Response to Draft Report ........................................................ 25
 
          Appendix E Acknowledgements ......................................................................... 31
 




                                                                BLS Controls Over State Pre-Release Economic Data
                                                                                       Report No. 17-12-005-11-001
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





              BLS Controls Over State Pre-Release Economic Data
                                     Report No. 17-12-005-11-001
                                            U.S. Department of Labor – Office of Inspector General


U.S. Department of Labor                  Office of Inspector General
                                          Washington, D.C. 20210




September 28, 2012

                         Assistant Inspector General’s Report


John M. Galvin
Acting Commissioner
Bureau of Labor Statistics
U.S. Department of Labor
Postal Square Building
2 Massachusetts Avenue, NE
Washington, DC 20212

Since 1917, the Bureau of Labor Statistics (BLS) has used cooperative agreements with
States and territories to provide funding for the collection and analysis of Labor Market
Information (LMI) data. Economic data and statistics that have not yet been released to
the public — such as official BLS estimates and other official BLS statistical products —
are called “pre-release information,” which BLS considers to be confidential. BLS
confidentiality provisions require that pre-release information not be disclosed or used in
an unauthorized manner before it is released to the public in order to protect the
integrity and credibility of BLS and guarantee that no one can gain an economic or
political advantage through advance knowledge of the information. Until pre-release
information is officially released to the public, it can only be accessed by authorized
persons. Under the terms of the cooperative agreement, an authorized person must be
designated as a BLS agent and must have signed a BLS agent agreement. States do
not have access to any national statistics prior to their release by BLS, but they do have
access to pre-release information related to their State, such as State employment and
unemployment estimates.

Within BLS, the Office of Field Operations (OFO) is responsible for monitoring the LMI
cooperative agreements with the States. Each cooperative agreement defines the
products to be delivered to BLS, time frames for delivery, and other administrative
requirements including the State’s responsibilities to safeguard confidential information.
States are required to agree to BLS’s confidentiality provisions as part of the
cooperative agreement.

The cooperative agreement covers five statistical programs: Current Employment
Statistics (CES), Local Area Unemployment Statistics (LAUS), Occupational
Employment Statistics (OES), Quarterly Census of Employment and Wages (QCEW),
and Mass Layoff Statistics (MLS). QCEW and MLS are derived from State
Unemployment Insurance (UI) information which, at the State level, BLS considers to be
State-owned data and not subject to BLS confidentiality provisions.


                                              BLS Controls Over State Pre-Release Economic Data
                                             1                       Report No. 17-12-005-11-001
                                          U.S. Department of Labor – Office of Inspector General


In January 2012, Senator Richard Burr wrote a letter to the OIG raising concerns about
the cooperative agreement between BLS and the State of North Carolina. According to
allegations made in an online news posting, the Governor of North Carolina’s press
office received access to confidential employment data from BLS in 2011, which the
Governor subsequently released in a speech made to a Rotary Club one day prior to
the data’s scheduled public release date. Furthermore, independent of Senator Burr’s
request, we learned that in May 2012, the news media reported that the Governor of
Wisconsin released employment statistics derived from State UI information prior to the
data being approved by BLS and officially becoming QCEW.

Our audit objectives were to answer the following questions:

  1. 	 Were any Federal statutes or BLS requirements related to the protection of
       confidential pre-release information violated in the LMI cooperative programs?

  2. 	 To what extent did BLS ensure that States were protecting confidential pre­
       release information from unauthorized use or disclosure? 


The audit covered the Fiscal Year (FY) 2012 cooperative agreement between BLS and
four states — North Carolina, Wisconsin, Washington and Louisiana. We selected North
Carolina in response to Senator Burr’s complaint, and Wisconsin because of its release
of State UI data that BLS had not approved. We selected Washington and Louisiana
randomly but ensured that each State was from a different BLS region. Also, because
about half of the States routinely release their CES and LAUS estimates in advance of
the monthly BLS release, we ensured that our sample of States was evenly distributed
based on this factor. Washington typically released its statewide CES and LAUS
estimates in advance of the BLS release of those data. Louisiana released its Statewide
CES and LAUS estimates at the same time or later than the BLS release. We
interviewed representatives from BLS and the States to gain an understanding of the
policies, procedures and practices in place to protect pre-release information from
unauthorized use or disclosure. We identified and reviewed all applicable Federal and
BLS criteria to which BLS and the States were held accountable for ensuring the
protection of pre-release information. We analyzed agent agreements, training records,
press releases, State LMI websites, and other documents to determine if States
complied with requirements in the cooperative agreement. We also analyzed the
forthcoming FY 2013 cooperative agreement for prospective changes and their impact
on our audit.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives. Additional background information is detailed in Appendix A, and our
objectives, scope, methodology, and criteria are detailed in Appendix B.



                                           BLS Controls Over State Pre-Release Economic Data
                                          2                       Report No. 17-12-005-11-001
                                          U.S. Department of Labor – Office of Inspector General


RESULTS IN BRIEF

We determined that no Federal statutes related to pre-release information existed; as
such, none were violated in the LMI cooperative programs. However, we did find that all
four States violated at least some BLS requirements contained in the cooperative
agreement to protect pre-release information from unauthorized use or disclosure.
Specifically, we determined that the early release of data by the Governor of North
Carolina was a violation of the cooperative agreement; however, we found that the early
release of data by the Governor of Wisconsin was not. In addition, we found that BLS
could do more to ensure States protect pre-release information. Further, the cooperative
agreement BLS used to ensure States protected pre-release information lacked clear
definitions which resulted in inconsistent interpretations by BLS and the States as to
what information was subject to BLS confidentiality requirements and who could have
access to pre-release information. The cooperative agreement also lacked appropriate
controls from the Office of Management and Budget (OMB) Statistical Policy Directive
(SPD) No. 4 to protect pre-release information.

Without strengthening its controls in the cooperative agreement to the extent possible
with respect to pre-release information, BLS will miss an opportunity to reduce the risk
of future security breaches, which could cause the public to lose confidence and trust in
BLS and its statistical products.

We recommend that the Acting Commissioner for BLS amend the cooperative
agreement to not just fully incorporate the requirements of OMB SPD No. 4, but to also
require that individuals with access to confidential pre-release information be informed
annually of their responsibilities to protect that information and acknowledge their
acceptance of those responsibilities in writing. We also recommend that the Acting
Commissioner provide clear guidance to the States and BLS Regional Offices for
granting agent agreements and access to pre-release information, increase monitoring
of States to include adherence to the confidentiality requirements established by the
cooperative agreement, clarify which estimates and statistical products are BLS-owned,
and provide clear definitions of pre-release information and related terms to the States
and BLS Regional Offices.

BLS RESPONSE

BLS agreed with three of the five recommendations in the report, but disagreed with the
other two recommendations and some elements of the individual findings. BLS agreed
that individuals were remotely accessing pre-release information in violation of the
cooperative agreement, the State of North Carolina violated the cooperative agreement,
and the cooperative agreement lacked clear definitions.

BLS did not agree that under the cooperative agreement only individuals designated as
BLS agents could have access to pre-release information. BLS contends that the BLS
agent agreement was intended for State employees who required access to micro-data
protected under CIPSEA and was never intended to cover all employees with access to


                                            BLS Controls Over State Pre-Release Economic Data
                                           3                       Report No. 17-12-005-11-001
                                                     U.S. Department of Labor – Office of Inspector General


pre-release information. BLS conceded, however, that “the cooperative agreement had
some structural inconsistencies and definitional issues that created confusion regarding
those people requiring BLS agent designations in order to see micro-data versus those
able to see pre-release information.” BLS contended that the audit should have based
its findings on BLS’s stated intent rather than the literal language of the cooperative
agreement.

BLS also disagreed that changes in the FY 2013 cooperative agreement introduced
additional control weaknesses, stating that the changes strengthen protections by
covering employees who were not previously covered. Furthermore, Commissioner’s
Order 3-11 provides for an exemption to signing a non-disclosure agreement, which
BLS has exercised because the pre-release certification form1 complies with the
requirements of OMB SPD No. 4.

In addition, BLS disagreed that the use of non-BLS email accounts to transmit pre­
release information violated the cooperative agreement and that it is not possible to
issue BLS email accounts to all employees within a State who need to see pre-release
information. BLS noted the Statement of IT Assurance within the cooperative agreement
is intended to ensure that State systems comply with requisite security procedures to
guarantee the secure transmission of data internally when technical constraints impede
States’ abilities to use BLS email accounts. Therefore, according to BLS, the use of
non-BLS email accounts should in no way lessen the security of data transmitted nor be
considered a violation of the cooperative agreement.

Finally, BLS disagreed that the cooperative agreement lacked appropriate controls to
protect pre-release information. BLS believes the current cooperative agreement
effectively protects pre-release information and imposing additional provisions of OMB
SPD No. 4 is unnecessary and could exceed BLS’s authority over the States. In
particular, BLS does not believe it has the statutory authority to direct State Governors
to sign a statement in order to access pre-release information. Implementing other
elements of OMB SPD No. 4 would also cause BLS to create policy necessary for
compliance by Governors’ offices the implementation and enforcement of which would
be impossible across all States negatively impacting the Federal-State partnership in
producing labor market information.

The BLS response is included in its entirety at Appendix D.

OIG CONCLUSION

While BLS states that agent agreements were only intended to cover employees with
access to CIPSEA-protected information, this was not the actual practice that was
implemented by the States and BLS Regional Offices we audited. Furthermore, the
language of the cooperative agreement clearly required all State employees with access
to confidential information – including pre-release information – to sign BLS agent

1
 For additional information, see “Changes to the Cooperative Agreement Introduce Additional Control Weaknesses”
on pages 9-10.

                                                       BLS Controls Over State Pre-Release Economic Data
                                                      4                       Report No. 17-12-005-11-001
                                           U.S. Department of Labor – Office of Inspector General


agreements, regardless of whether the confidential information was covered by
CIPSEA.

Although the new BLS pre-release certification form in the FY 2013 cooperative
agreement may cover some State employees who were not previously covered by
agent agreements, BLS is not requiring employees with access to pre-release
information to sign a non-disclosure agreement, which BLS internal procedures require
of non-BLS employees with access to pre-release information, and will not provide
those employees annual confidentiality training. OIG believes these changes could
significantly reduce the effectiveness of the new controls in protecting pre-release
information from unauthorized use or disclosure, particularly for those State employees
who previously signed BLS agent agreements and completed the annual training but
whose agent agreements will be revoked by BLS because they do not require access to
CIPSEA-protected information.

Regarding the use of non-BLS email accounts for transmitting confidential information,
BLS did not explain why it is impossible to issue BLS email accounts to all employees
within a State who need email access to confidential information. However, if BLS
believes that the Statement of IT Assurance provides for the same level of security
when transmitting confidential information, BLS should clarify this in the cooperative
agreement so that confidential information, such as pre-release information, is handled
by the States in a consistent manner. If BLS email accounts are not necessary to
adequately protect confidential information, BLS should waive the requirement entirely
and eliminate all BLS email accounts in the program.

OIG does not believe that extending additional provisions from OMB SPD No. 4 will
exceed BLS’s authority. Although BLS believes it lacks statutory authority to require
State Governors to sign an agreement in order to access BLS pre-release information,
BLS provided no evidence on behalf of this argument. Even if Governors refused to sign
an agreement, BLS could require all the other State employees with access to
pre-release information to sign an agreement and then develop an alternate procedure
for granting access to Governors. Moreover, BLS claims it is sufficient for the State
Cooperating Representative to certify that all State employees have been made aware
of the confidentiality requirements and have agreed to them. That would include any
Governors of the States granted access to pre-release information, thereby undermining
BLS’s argument that it lacks authority to require compliance by the Governors.

OIG also does not believe that implementing the other provisions from OMB SPD No. 4
would cause BLS to create unnecessary policy compliance by Governors’ offices, as
claimed by BLS. In fact, it is highly unlikely that any of the other provisions of OMB SPD
No. 4 would require policies applicable to anyone but the State LMI units. For example,
requiring that States release data to the public immediately in the event of a breach, or
requiring that States provide the public an annual schedule of when statistical products
will be released, would not require any policy necessary for compliance by a Governor’s
office.



                                            BLS Controls Over State Pre-Release Economic Data
                                           5                       Report No. 17-12-005-11-001
                                          U.S. Department of Labor – Office of Inspector General


RESULTS AND FINDINGS

Objective 1 — Were any Federal Statutes or BLS requirements related to the
              protection of confidential pre-release information violated in the
              LMI cooperative programs?

      States violated provisions of the cooperative agreement, exposing BLS pre-
      release information to unnecessary risk of unauthorized use or disclosure.

While there were no violations of Federal statutes related to pre-release information
because no such Federal statutes existed, we found that all four States violated BLS
requirements contained in the cooperative agreement to protect pre-release information
from unauthorized use or disclosure.

Finding 1 — All four States violated security controls contained in the
            cooperative agreement to protect confidential pre-release
            information from unauthorized use or disclosure.

All four States violated security controls established by the cooperative agreement,
exposing BLS pre-release information to unnecessary risk of unauthorized use or
disclosure. We found instances in which individuals who were not properly authorized
had access to confidential pre-release information. We also found that individuals were
using State email accounts to transmit confidential pre-release information rather than
the required BLS email accounts. Additionally, two States allowed individuals to have
remote access to confidential pre-release information, but that access had not been
approved by BLS as required by the cooperative agreement. This occurred because
BLS relied on the States to follow the cooperative agreement, but did not actively
monitor State compliance with confidentiality requirements.

Our review of the circumstances surrounding the possible mishandling of BLS data in
North Carolina and Wisconsin revealed differences in the types of data that were
released. We found the early release of BLS estimates derived from CES and LAUS
data by the Governor of North Carolina violated the cooperative agreement. Conversely,
we found the early release of employment data derived from State UI information by the
Governor of Wisconsin did not violate the cooperative agreement because BLS
considered the data to be State-owned until it was provided to BLS to develop the
QCEW.

States Allowed Unauthorized Access to Pre-Release Information.

In all four States, we found individuals with access to pre-release information who were
not properly authorized to have that access under the terms of the cooperative
agreement. Specifically, we identified 95 of 259 individuals who had access to
pre-release information but had not signed BLS agent agreements as required by the
cooperative agreement (see Table 1).



                                            BLS Controls Over State Pre-Release Economic Data
                                           6                       Report No. 17-12-005-11-001
                                          U.S. Department of Labor – Office of Inspector General




Table 1: Access to Pre-Release Information
                     Individuals With      Individuals with                 Individuals with
                         Pre-Release            Authorized                    Unauthorized
State                         Access               Access                           Access
Louisiana                          23                   17                                 6
North Carolina                     46                   43                                 3
Washington                         87                   36                               51
Wisconsin                         103                   68                               35
Total                             259                  164                               95

Subsequent to our audit, the State of Washington obtained agent agreements for 12
individuals and was in the process of obtaining agent agreements for 36 others. Three
other individuals in the State of Washington no longer had access to pre-release
information.

The State of Louisiana agreed that three individuals did not have agent agreements but
claimed three others had signed agent agreements; however, the agent agreements
State officials provided were not signed by an authorizing BLS Regional Office official.
The Dallas BLS Regional Office officials stated that they were in the process of
approving one agent agreement for the State of Louisiana, but the other five individuals
did not work directly on the cooperative agreement or have access to information
protected by the Confidential Information Protection and Statistical Efficiency Act of
2002 (CIPSEA) and, therefore, were not eligible for agent agreements.

The State of North Carolina claimed that individuals without agent agreements were not
required to have them because they did not have access to CIPSEA-protected
information. However, we noted that other individuals in North Carolina who would not
have access to CIPSEA-protected information, such as the Assistant Secretary for
Communications and External Affairs and the Public Information Officer, had signed
agent agreements.

The State of Wisconsin did not dispute our numbers; however, the Chicago BLS
Regional Office stated that the reason the 35 individuals did not have agent agreements
was because they did not have access to CIPSEA-protected information. The Chicago
BLS Regional Office revoked agent agreements for an additional 8 individuals in the
State because they no longer had access to CIPSEA-protected information even though
they still had access to pre-release information. Additionally, BLS National Office
officials told us that they may have to revoke some of the agent agreements that were
currently in process or recently granted.

The Cooperative Agreement Required BLS Agent Agreements

Senior BLS officials advised us that it was never the intent of BLS to require that all
State employees with access to any “confidential information” have signed BLS agent
agreements. Rather, these officials informed us that BLS agent agreements were

                                            BLS Controls Over State Pre-Release Economic Data
                                           7                       Report No. 17-12-005-11-001
                                                    U.S. Department of Labor – Office of Inspector General


intended to be required only for individuals with access to CIPSEA-protected
information. In support of this contention, BLS indicated that CIPSEA was a relatively
new statute and before its enactment in 2002, there were no BLS agent agreements.
Yet State employees were, for many years, permitted to access confidential information
such as pre-release information. According to BLS, the creation of BLS agent
agreements was not meant to change State employees’ longstanding access to
pre-release information, but rather only to require that State employees with access to
information covered by CIPSEA have signed BLS agent agreements.

However, our review of the provisions contained in the FY 2012 cooperative agreement
and documents incorporated by reference found that, despite the BLS claims, the
cooperative agreement required all State employees with access to any “confidential
information,” including pre-release information, to have signed BLS agent agreements,
regardless of whether the “confidential information” was covered by CIPSEA.

The cooperative agreement defined “confidential information” expansively as “all data
collected as part of the LMI programs under sole BLS authority or joint BLS/State
authority.” 2 The only exceptions contained in the cooperative agreement related to UI
information included in the QCEW files. The cooperative agreement then provided
several examples of “confidential information,” including “pre-release information such
as official BLS estimates and other official BLS statistical products prior to their official
date and time of release by the BLS.”3 Similarly, BLS Commissioner’s Order No. 1-06,
which was explicitly made applicable to the State agencies and State employees and
agents by the cooperative agreement,4 broadly defined “confidential information” to
include, among other things, pre-release economic data.5 Neither the cooperative
agreement nor the Commissioner’s Order limited the definition of “confidential
information” to information or data covered by CIPSEA.

Commissioner’s Order No. 1-06 also defined an “authorized person” as an agent falling
within one of five listed groups. The first group listed was “State agency employees who
are directly involved in the BLS/State cooperative programs, who are subject to the
provisions of the BLS/State cooperative agreement, and who have signed a BLS agent
agreement.”6 The remaining four categories of individuals also required that the
individuals signed a BLS agent agreement in order to be an “authorized person.” The
cooperative agreement itself did not define the term “authorized person,” but rather
defined the apparently interchangeable term “authorized agents” as “individuals who
have been designated by the BLS to work directly on the activities covered by this
cooperative agreement and who have signed a BLS agent agreement.”7




2
 LMI Cooperative Agreement, p. I-10, ¶ S.2.a
3
 LMI Cooperative Agreement, p. I-11, ¶ S.2.a.vi
4
 LMI Cooperative Agreement, p. I-10, ¶ S.1
5
 BLS Commissioner’s Order No. 1-06, ¶ 6.a.ii
6
 BLS Commissioner’s Order No. 1-06, ¶ 8.b (1) (emphasis added)
7
 LMI Cooperative Agreement, p. I-12, ¶ 4.b (emphasis added)

                                                      BLS Controls Over State Pre-Release Economic Data
                                                     8                       Report No. 17-12-005-11-001
                                                      U.S. Department of Labor – Office of Inspector General


With respect to who may have access to confidential pre-release information, the
cooperative agreement stated that the “State agency agrees that pre-release
information such as official BLS estimates and other official BLS statistical products will
not be disclosed or used in an unauthorized manner before they have been released by
the BLS, and will be accessible only to authorized persons.8 The cooperative agreement
went on to state that “State employees may not have access to data collected on behalf
of the BLS for exclusively statistical purposes, unless they are designated as
“authorized agents” of the BLS.”9 It further stated that “the State agency will assure that
there will be no access to confidential information by any person other than an agent
designated pursuant to this agreement.”10 Similarly, Commissioner’s Order No. 1-06
provided that “pre-release economic data … prepared for release to the public will not
be disclosed or used in an unauthorized manner before they officially have been
released, and will be accessible only to authorized persons.11

Based on the above-referenced provisions of the cooperative agreement and
Commissioner’s Order No. 1-06, it is clear that, under the operative documents, pre­
release information should not be accessed by any individual who had not signed a BLS
agent agreement. This is because, by not having a signed agent agreement, that
individual was not an authorized person or agent and, therefore, that individual was not
allowed to access any confidential information, including pre-release information.

BLS Regional Offices Interpreted Cooperative Agreement Requirements Inconsistently

BLS Regional Offices generally relied on the States to determine who needed to sign
agent agreements, but they also interpreted the cooperative agreement requirements
for designating agents inconsistently. For example, the BLS San Francisco Regional
Office said it wanted someone to have an agent agreement in case something
happened in the future and interpreted the need for an agent agreement broadly, but
the BLS Dallas Regional Office was more restrictive and said only people who worked
directly on the LMI programs should be granted agent agreements and that Information
Technology (IT) staff were covered under the Statement of Assurance for Information
Security that every State submitted with the cooperative agreement. Other BLS
Regional Offices granted agent agreements to any IT staff with potential access to
confidential information.

Changes to the Cooperative Agreement Will Introduce Additional Control Weaknesses

The FY 2013 cooperative agreement will expand the definition of “authorized persons”
to include State employees who have been approved for access to pre-release
information as certified by the State Cooperating Representative.12 This will require the

8
 LMI Cooperative Agreement, p. I-12, ¶ 3.b (emphasis added)
9
 LMI Cooperative Agreement, p. I-12, ¶ 4.b
10
  LMI Cooperative Agreement, p. I-12, ¶ 4.d
11
  BLS Commissioner’s Order No. 1-06, ¶ 7.b (emphasis added)
12
  The State Cooperating Representative is the State official designated to act as the BLS representative for the
cooperative agreement and is responsible for ensuring that the cooperating State agency understands and complies
with all provisions of the cooperative agreement.

                                                       BLS Controls Over State Pre-Release Economic Data
                                                      9                       Report No. 17-12-005-11-001
                                                      U.S. Department of Labor – Office of Inspector General


State Cooperating Representative to identify and list all non-BLS agents (i.e., individuals
who have not signed an agent agreement) with access to pre-release information and
certify, by signing a “Pre-Release Certification Form,” that those individuals have been
informed of their responsibilities and obligations and accepted those conditions.13 The
FY 2013 cooperative agreement will no longer require a signed BLS agent agreement in
order to access pre-release information.

However, these proposed changes will introduce additional control weaknesses. Under
the FY 2013 cooperative agreement, non-BLS agents will be informed of the conditions
for handling BLS pre-release information through reading or listening to the
requirements. They will be allowed to accept these conditions through verbal affirmation
provided to the State Cooperating Representative, but will not be required to
acknowledge their acceptance in writing via a signature. BLS internal procedures,
documented in Commissioner’s Order 3-11, require that non-BLS employees with
access to pre-release information sign either an agent agreement or a non-disclosure
agreement. BLS officials stated that it would be difficult to enforce the cooperative
agreement if they required high-level State officials (i.e., State Governors) to sign a non­
disclosure agreement. Additionally, the cooperative agreement will only require those
individuals listed to be informed of their responsibilities one time and will not require that
they take the annual confidentiality training (since they are not BLS agents). These
weaknesses may lead to State employees not fully understanding and being held
accountable for their responsibilities to protect pre-release information.

States used non-BLS email accounts to transmit pre-release information.

All four States used State email systems to transmit pre-release information. This
typically occurred when the LMI unit shared CES and LAUS pre-release information
outside the unit with individuals who were involved in the press release process who did
not have BLS email accounts.

The cooperative agreement required that all LMI-related email containing confidential
information be transmitted using the BLS mail server, unless prevented by technical
constraints.

States allowed remote access to pre-release information without prior approval.

Two States allowed individuals to remotely access pre-release information without prior
written approval from the Regional Office. However, the cooperative agreement
required that States prohibit remote access to confidential BLS program data from
offsite locations without prior written approval from BLS.




13
 The FY 2013 cooperative agreement no longer directly references any external policies and procedures, such as
BLS Commissioner’s Order 1-06.

                                                       BLS Controls Over State Pre-Release Economic Data
                                                      10                      Report No. 17-12-005-11-001
                                            U.S. Department of Labor – Office of Inspector General


North Carolina violated the cooperative agreement while Wisconsin did not.

Our review of the circumstances surrounding the possible mishandling of BLS data in
North Carolina and Wisconsin revealed differences in the types of data that were
released.

North Carolina

The cooperative agreement required States to establish a publication schedule for CES
and LAUS data and report any changes to the schedule on the State’s website. The
cooperative agreement also allowed the State LMI unit to share CES and LAUS
estimates with individuals outside the LMI unit (i.e., the Governor’s Office) after the
estimates were cleared by BLS as final and ready for publication but prior to the
estimates’ public release. However, there were no requirements in the cooperative
agreement clarifying or explaining the conditions under which that sharing could take
place.

According to officials from the State of North Carolina, as part of the State’s normal data
release process, the LMI unit regularly shared a draft of the press release with the
Governor’s office with a reminder that the data was embargoed. We found that the
release of BLS estimates derived from CES and LAUS data to a Rotary Club in a
speech on August 18, 2011 – one day prior to the scheduled public release date – by
the Governor of North Carolina was a violation of the cooperative agreement. The State
LMI unit released the data to the public on August 19, 2011, in accordance with its
publication schedule.

North Carolina officials believed a violation of the cooperative agreement occurred and
reported the suspected breach to BLS, as required by the cooperative agreement, after
they discovered that the news media were reporting on employment and unemployment
numbers on the morning of Friday, August 19, 2011. The BLS Atlanta Regional Office
stated that the incident was a violation of the cooperative agreement because the State
released the data at a time other than what was indicated on its website.

Wisconsin

We found that the release of employment data derived from State UI information for the
fourth quarter of 2011 on May 16, 2012, by the Governor of Wisconsin was not a
violation of the cooperative agreement because BLS considered this data to be State-
owned until it was provided to BLS. Moreover, the cooperative agreement stated that, at
the State level, UI information included in the QCEW files is considered the State's data
and is subject to State confidentiality provisions and is not subject to BLS confidentiality
provisions.




                                             BLS Controls Over State Pre-Release Economic Data
                                            11                      Report No. 17-12-005-11-001
                                            U.S. Department of Labor – Office of Inspector General


Objective 2 — To what extent did BLS ensure that States were protecting
              confidential pre-release information from unauthorized use or
              disclosure?

      Deficiencies in the cooperative agreement resulted in inconsistent treatment of
      pre-release information and increased the risk of security breaches.

BLS could do more to ensure that States protected pre-release information from
unauthorized use or disclosure. While BLS used the cooperative agreement to ensure
that States protected pre-release information, the cooperative agreement lacked clear
definitions of pre-release information and related terms. This allowed for inconsistent
interpretations by States and BLS Regional Offices concerning what information was
subject to BLS confidentiality requirements. The cooperative agreement also lacked
appropriate controls from OMB SPD No. 4 to protect pre-release information. Although
BLS had extended some provisions of OMB SPD No. 4 to the States, it did not extend
all of the provisions intended to protect the release and dissemination of statistical
products. While OMB SPD No. 4 applies directly only to Federal statistical agencies,
BLS could extend more of these requirements to the States through the cooperative
agreement.

Finding 2 — The cooperative agreement lacked clear definitions of pre-release
            information and related terms.

Although the cooperative agreement provided some examples, it did not adequately
define pre-release information or other related terms used throughout, such as “official
BLS estimates and other official BLS statistical products” and “State estimates.” States
and Regions had varying definitions of pre-release information, which differed from the
official BLS definition as referenced in Commissioner’s Order No. 1-06.

Commissioner’s Order No. 1-06 defined pre-release information as “statistics and
analyses that have not yet officially been released to the public, whether or not there is
a set date and time of release before which they must not be divulged.”

The cooperative agreement stated that “pre-release information such as official BLS
estimates and other official BLS statistical products prior to their official date and time of
release by the BLS” were considered confidential and could not be disclosed or used in
an unauthorized manner. It also stated that the State’s confidentiality responsibilities
with respect to pre-release information did not affect the ability of States to publish State
estimates; however, the cooperative agreement never clarified which estimates and
products belonged to BLS and which belonged to the States. State-owned estimates
would not be subject to the BLS confidentiality provisions under the cooperative
agreement.

BLS National Office officials stated that all LMI programs provided some level of
pre-release information.



                                              BLS Controls Over State Pre-Release Economic Data
                                             12                      Report No. 17-12-005-11-001
                                            U.S. Department of Labor – Office of Inspector General


The BLS Dallas Regional Office and the State of North Carolina said that CES and
LAUS estimates, once approved for release by BLS, were State-owned data and not
subject to BLS confidentiality provisions. According to the Dallas Regional Office, OES,
QCEW and MLS all had some level of pre-release information.

The BLS San Francisco and Chicago Regional Offices said that CES, LAUS and OES
data were pre-release information once approved by BLS until the data was actually
released. Both offices agreed that QCEW had no pre-release information but Chicago
officials said that MLS had pre-release information while San Francisco officials said
MLS did not.

The State of Louisiana said that all LMI program data was pre-release information until
it was actually released to the public.

The State of Wisconsin said that CES and LAUS data were pre-release information
because those programs had scheduled release dates, but since the other LMI
programs did not have schedules the data in those programs could not be “pre­
released.”

These differing definitions allowed for inconsistent interpretations by States and
Regional Offices concerning what information was subject to BLS confidentiality
requirements. All BLS estimates and statistical products, regardless of whether or not
there is a scheduled release date and time, should be considered pre-release
information subject to BLS confidentiality requirements. In order to properly protect
confidential BLS information, BLS must clarify which estimates and statistical products
are BLS-owned in each of the LMI cooperative programs. It must also establish clear
definitions of pre-release information and related terms, and communicate those
definitions to the States and BLS Regional Offices.

Finding 3 — The cooperative agreement lacked appropriate controls to protect
            pre-release information from unauthorized use or disclosure.

The cooperative agreement lacked appropriate controls from OMB SPD No. 4 to protect
pre-release information. Although BLS had extended some provisions of OMB SPD No.
4 to the States, it did not extend all of the provisions intended to protect the release and
dissemination of statistical products. Although OMB SPD No. 4 applies only to Federal
statistical agencies, BLS could extend more of these requirements to the States through
the cooperative agreement.

OMB SPD No. 4 provides guidance to Federal agencies on the release and
dissemination of statistical products. The procedures in OMB SPD No. 4 are intended to
ensure that statistical data releases adhere to data quality standards through equitable,
policy-neutral, transparent, and timely release of information to the general public.

BLS had extended some of the provisions of OMB SPD No. 4 to the States through the
cooperative agreement. BLS extended the requirement that statistical agencies must


                                             BLS Controls Over State Pre-Release Economic Data
                                            13                      Report No. 17-12-005-11-001
                                                     U.S. Department of Labor – Office of Inspector General


not share estimates outside of the agency until those estimates are final and ready for
publication. It also extended the requirement that statistical agencies annually provide
the public with a schedule of when each regular or recurring statistical product is
expected to be released during the upcoming calendar year by publishing it on its
website, but only for the CES and LAUS products.

BLS did not extend a number of additional OMB SPD No. 4 provisions to the States
through the cooperative agreement, specifically:

        1. Agencies shall establish arrangements and impose conditions on the granting
           of access to pre-release information that are necessary to ensure there is no
           unauthorized dissemination or use.
        2. Agencies shall ensure that any person or organization with access to pre­
           release information has been fully informed of, and has acknowledged
           acceptance of, these conditions.
        3. Statistical press releases produced and issued by agencies must provide a
           policy-neutral description of the data and must not include policy
           pronouncements.
        4. Agencies must release data to the public immediately in the event that pre­
           release information is disseminated or used in an unauthorized manner
           before a specific date and time.
        5. Agencies shall provide the public with an annual schedule of when each
           regular or recurring statistical product is expected to be released during the
           upcoming calendar year by publishing it on their website.14
        6. Agencies should provide complete documentation of their dissemination
           policies on their website.

Some States already had practices or procedures that incorporated some of these
requirements. For example, one State required individuals with access to pre-release
information to sign a form acknowledging that they would not use pre-release
information for any purpose other than preparing the public release of the information.
Without extending OMB SPD No. 4 requirements to States through the cooperative
agreement, BLS cannot be assured that BLS/State cooperative statistical products will
be released to the public in an equitable, policy neutral, transparent, and timely manner.

BLS officials stated that differences in the organization and authority of State LMI offices
would make implementation and enforcement of specific requirements difficult or
impossible, and would negatively impact the partnership that BLS has with the States.
Therefore, BLS opted not to impose all the specific components of the directive on the
States. According to BLS officials, this OMB directive, along with other Federal and
agency guidelines, were highlighted during a presentation to the LMI Directors in order
to provide a greater understanding of BLS policies and procedures.



14
 Currently the cooperative agreement only requires States to develop an annual release schedule for CES and
LAUS estimates.

                                                       BLS Controls Over State Pre-Release Economic Data
                                                      14                      Report No. 17-12-005-11-001
                                           U.S. Department of Labor – Office of Inspector General


However, BLS has already proposed to extend more provisions from OMB SPD No.4 by
incorporating them into the FY 2013 cooperative agreement, thereby strengthening
controls over pre-release information. The FY 2013 cooperative agreement will require
that individuals be made aware of and acknowledge their responsibilities to protect pre­
release information and that releases issued by State LMI units be policy-neutral
(provisions 2 and 3 above).

Our review of the FY 2013 cooperative agreement identified that it does not adequately
define the term “release.” Officials from one State we visited said that press releases
and related commentary were outside the scope of the cooperative agreement.
Because the cooperative agreement stated that publication included the posting of
information or linking the information to the BLS website, and given the manner in which
data was published on the State’s website, officials concluded that data releases could
not be political. This contradicted BLS National Office officials, who stated that the term
“release” included the actual data release and any accompanying materials published
such as a press release.

Without strengthening its controls in the cooperative agreement to the extent possible
with respect to pre-release information, BLS will miss an opportunity to reduce the risk
of future security breaches which could cause the public to lose confidence and trust in
BLS and its statistical products.


RECOMMENDATIONS

We recommend that the Acting Commissioner for BLS:

    1. Provide clear guidance to the States and BLS Regional Offices for granting
       agent agreements and granting access to pre-release information.

    2. Amend the cooperative agreement to require that individuals with access to
       confidential pre-release information be informed annually of their responsibilities
       to protect that information and acknowledge their acceptance of those
       responsibilities in writing.

    3. Amend the cooperative agreement to fully incorporate the requirements of OMB
       SPD No. 4.

    4. Ensures that BLS increase its monitoring of States to include adherence to the
       confidentiality requirements established by the cooperative agreement.

    5. Clarify which estimates and statistical products are BLS-owned in each of the
       LMI cooperative programs, and provide clear definitions of pre-release
       information and related terms to the States and BLS Regional Offices.




                                            BLS Controls Over State Pre-Release Economic Data
                                           15                      Report No. 17-12-005-11-001
                                        U.S. Department of Labor – Office of Inspector General


We appreciate the cooperation and courtesies that BLS and State personnel extended
to the Office of Inspector General during this audit. OIG personnel who made major
contributions to this report are listed in Appendix E.




Elliot P. Lewis
Assistant Inspector General
 for Audit




                                         BLS Controls Over State Pre-Release Economic Data
                                        16                      Report No. 17-12-005-11-001
               U.S. Department of Labor – Office of Inspector General




Appendices 





                BLS Controls Over State Pre-Release Economic Data
               17                      Report No. 17-12-005-11-001
            U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





             BLS Controls Over State Pre-Release Economic Data
            18                      Report No. 17-12-005-11-001
                                           U.S. Department of Labor – Office of Inspector General


                                                                                  Appendix A
Background

BLS is responsible for the production of some of the nation's most sensitive and
important economic data. Since 1917, BLS has used cooperative agreements with
States and territories to provide funding for the collection and analysis of LMI data that
BLS uses in its national statistical programs. Economic data and statistics that have not
yet been released to the public — such as official BLS estimates and other official BLS
statistical products — are called “pre-release information,” which BLS considers to be
confidential. BLS confidentiality provisions require that pre-release information not be
disclosed or used in an unauthorized manner before it is released to the public in order
to protect the integrity and credibility of BLS and guarantee that no one can gain an
economic or political advantage through advance knowledge of the information. Until
pre-release information is officially released to the public, it can only be accessed by
authorized persons. An authorized person must be designated as a BLS agent and
must have signed a BLS agent agreement. States do not have access to any national
statistics prior to their release by BLS, but they do have access to pre-release
information related to their State, such as State employment and unemployment
estimates.

Within BLS, the Office of Field Operations is responsible for monitoring the cooperative
agreements with the States. Each cooperative agreement defines the products to be
delivered to BLS, time frames for delivery, and other administrative requirements
including the State’s responsibilities to safeguard confidential information. States are
required to agree to BLS’s confidentiality provisions as part of the cooperative
agreement.

The cooperative agreement covers five statistical programs:

         CES

         LAUS 

         OES 

         QCEW 

         MLS 


QCEW and MLS are derived from State UI information which at the State level, BLS
considers to be the State’s data and not subject to BLS confidentiality provisions.

BLS considers the following types of information to be confidential:

         Pre-Release Information: All economic data and statistics not yet released to
          the public, including analyses supported by the data and statistics, until the
          data and statistics are released.
         Respondent Identifiable Information: Any information that permits the identity
          of the respondent to whom the information applies to be reasonably inferred
          by either direct or indirect means. Respondent Identifiable Information is

                                            BLS Controls Over State Pre-Release Economic Data
                                           19                      Report No. 17-12-005-11-001
                                          U.S. Department of Labor – Office of Inspector General


          protected under CIPSEA, which established fines and penalties for willful
          unauthorized disclosure of respondent data.

In January 2012, Senator Richard Burr wrote a letter to the OIG raising concerns about
the cooperative agreement between BLS and the State of North Carolina. According to
allegations made in an online news posting, the Governor of North Carolina’s press
office received access to confidential employment data from BLS in 2011, which the
Governor subsequently released in a speech made to a Rotary Club prior to the data’s
scheduled public release date. Furthermore, independent of Senator Burr’s request, we
learned that in May 2012, the news media reported that the Governor of Wisconsin
released employment statistics derived from State UI information prior to the data being
approved by BLS and officially becoming QCEW.




                                           BLS Controls Over State Pre-Release Economic Data
                                          20                      Report No. 17-12-005-11-001
                                          U.S. Department of Labor – Office of Inspector General


                                                                                 Appendix B
Objectives, Scope, Methodology, and Criteria

Objectives

Our audit objectives were to answer the following questions:

1. 	   Were any Federal statutes or BLS requirements related to protection of 

       confidential pre-release information violated in the LMI cooperative programs? 


2. 	   To what extent did BLS ensure that States were protecting confidential pre­
       release information from unauthorized use or disclosure? 


Scope

The audit covered the FY 2012 LMI cooperative agreement between BLS and four
states - North Carolina, Wisconsin, Washington and Louisiana. We also analyzed the
forthcoming FY 2013 LMI cooperative agreement.

We conducted fieldwork at the BLS national office in Washington, D.C., BLS regional
offices in Atlanta, Chicago, Dallas and San Francisco, and State LMI offices in North
Carolina, Wisconsin, Louisiana, and Washington.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives.

Methodology

We interviewed representatives from BLS and the States to gain an understanding of
the policies, procedures and practices in place to protect confidential pre-release
information from unauthorized use or disclosure. We identified and reviewed all
applicable Federal and BLS criteria that BLS and the States were held accountable to
for ensuring the protection of pre-release information. We analyzed agent agreements,
training records, press releases, State LMI websites, and other documents to determine
if States complied with requirements in the cooperative agreement. We also analyzed
the forthcoming FY 2013 LMI cooperative agreement for prospective changes and their
impact on our audit.

We selected North Carolina in response to Senator Burr’s complaint, and Wisconsin
because of its release of State UI data that BLS had not approved. We selected
Washington and Louisiana randomly but ensured that each State was from a different
BLS region. Also, because about half of the States routinely release their CES and


                                           BLS Controls Over State Pre-Release Economic Data
                                          21                      Report No. 17-12-005-11-001
                                                      U.S. Department of Labor – Office of Inspector General


LAUS estimates in advance of the monthly BLS release, we ensured that our sample of
States was evenly distributed based on this factor. Washington typically released its
Statewide CES and LAUS estimates in advance of the BLS release of those data.
Louisiana released its Statewide CES and LAUS estimates at the same time or later
than the BLS release.

In planning and performing our audit, we considered BLS’s internal controls that were
relevant to our audit objectives. We confirmed our understanding of these controls
through interviews and reviews of policies and procedures. Our consideration of internal
controls relevant to our audit objectives would not necessarily disclose all matters that
might be significant deficiencies. Because of inherent limitations in internal controls,
noncompliance may nevertheless occur and not be detected.

In conducting our audit, we did not rely on computer-processed data; therefore, the
sufficiency and reliability of data was not applicable in meeting the audit’s objective.

Criteria

 	     OMB SPD No. 4

 	     BLS - LMI FY12 Cooperative Agreement

 	     BLS Commissioner’s Order No. 1-0615, “Confidential Nature of BLS Statistical 

        Data” 


 	     BLS Commissioner’s Order No. 3-11, “BLS Pre-Release Information”




15
   Although BLS replaced this Commissioner’s Order in November 2011, the reference in the LMI cooperative
agreement (effective October 2011) was not updated. According to BLS officials, the changes would have no effect
on States’ responsibilities to protect confidential data.

                                                       BLS Controls Over State Pre-Release Economic Data
                                                      22                      Report No. 17-12-005-11-001
                                          U.S. Department of Labor – Office of Inspector General


                                                                                 Appendix C
Acronyms and Abbreviations




BLS        Bureau of Labor Statistics

CES        Current Employment Statistics

CIPSEA     Confidential Information Protection and Statistical Efficiency Act of 2002

FY         Fiscal Year

IT         Information Technology

LAUS       Local Area Unemployment Statistics

LMI        Labor Market Information

MLS        Mass Layoff Statistics

OES        Occupational Employment Statistics

OIG        Office of Inspector General

OMB        Office of Management and Budget

QCEW       Quarterly Census of Employment and Wages

SPD        Statistical Policy Directive

UI         Unemployment Insurance




                                           BLS Controls Over State Pre-Release Economic Data
                                          23                      Report No. 17-12-005-11-001
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





              BLS Controls Over State Pre-Release Economic Data
             24                      Report No. 17-12-005-11-001
                               U.S. Department of Labor – Office of Inspector General


                                                                      Appendix D
BLS Response to Draft Report




                                BLS Controls Over State Pre-Release Economic Data
                               25                      Report No. 17-12-005-11-001
U.S. Department of Labor – Office of Inspector General




 BLS Controls Over State Pre-Release Economic Data
26                      Report No. 17-12-005-11-001
U.S. Department of Labor – Office of Inspector General




 BLS Controls Over State Pre-Release Economic Data
27                      Report No. 17-12-005-11-001
U.S. Department of Labor – Office of Inspector General




 BLS Controls Over State Pre-Release Economic Data
28                      Report No. 17-12-005-11-001
U.S. Department of Labor – Office of Inspector General




 BLS Controls Over State Pre-Release Economic Data
29                      Report No. 17-12-005-11-001
U.S. Department of Labor – Office of Inspector General




 BLS Controls Over State Pre-Release Economic Data
30                      Report No. 17-12-005-11-001
                                         U.S. Department of Labor – Office of Inspector General


                                                                                Appendix E
Acknowledgements

Key contributors to this report were Tracy Michael Katz, Stephen Sovich, and Brian
Devaney.




                                          BLS Controls Over State Pre-Release Economic Data
                                         31                      Report No. 17-12-005-11-001
                  U.S. Department of Labor – Office of Inspector General




.





     PAGE INTENTIONALLY LEFT BLANK





                   BLS Controls Over State Pre-Release Economic Data
                  32                      Report No. 17-12-005-11-001
TO REPORT FRAUD, WASTE OR ABUSE, PLEASE CONTACT:

Online:   http://www.oig.dol.gov/hotlineform.htm
Email:    hotline@oig.dol.gov

Telephone:      1-800-347-3756
                202-693-6999

Fax:            202-693-7020

Address: Office of Inspector General
         U.S. Department of Labor
         200 Constitution Avenue, N.W.
         Room S-5506
         Washington, D.C. 20210
